DOE/IG-0486




               AUDIT             FEDERAL ENERGY REGULATORY
              REPORT               COMMISSION’S DAM SAFETY
                                          PROGRAM




                                         October 2000




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                        October 27, 2000


MEMORANDUM FOR THE CHAIRMAN, FEDERAL ENERGY REGULATORY
COMMISSION

FROM:          Gregory H. Friedman (Signed)
               Inspector General

SUBJECT:       INFORMATION: Audit Report on "Federal Energy Regulatory Commission's
               Dam Safety Program"


BACKGROUND

Under the Federal Power Act, as amended, the Federal Energy Regulatory Commission
(Commission) is responsible for ensuring that over 2,500 non-Federal hydroelectric dams under
its jurisdiction are properly constructed, operated and maintained. To determine whether the
dams' physical structures are maintained in a safe manner to protect the public, the Commission
performs onsite inspections to identify evidence of damage or other conditions that could impair
proper project operation or violate license requirements.

High and significant hazard dams are scheduled to be inspected annually by the Commission
each year and once every 5 years by independent consultants. These dams are inspected at
such frequency because failure of the dam structures could result in loss of human life,
economic loss, environmental damage, or disruption of facilities. The remaining dams, which
have a low risk that failure would result in such loss, are inspected every 3 years. When
independent consultants perform the inspections, Commission engineers are required to assess
the scope and adequacy of the inspections.

We audited the Commission's dam safety program to determine if the goals of the program
were being met. More specifically, the audit focused on whether the Division of Dam Safety
and Inspections was conducting inspections, including reporting results and tracking follow-up
actions.


RESULTS OF AUDIT

In Fiscal Year 1999 the Commission conducted inspections at over 900 high and significant
hazard dams. The Commission also used management systems to track key information
requirements and actions, and information reviewed during the course of the audit was
generally found to be accurate and complete. However, improvements were needed in the
review of independent consultant reports and the processing of internal reports relating to the
inspection of dams.

As of spring 2000, the Commission had not comprehensively reviewed over 70 independent
consultant reports and had not prepared final reports of more than 300 internal inspections,
some of which had been performed in 1997. This situation existed because management had
not fully monitored regional office performance or established report issuance as a priority or a
                                                2

measure of performance. As a result, the Commission did not have complete, timely, and
important information about the safety condition of some dams under its jurisdiction. Further,
inspection results were susceptible to misunderstanding since they had not been finalized and
were not available for management review and public accountability. The attached report
recommends that the Commission develop a plan to address the backlog and improve its
monitoring of inspection reports.


MANAGEMENT REACTION

Your office concurred with the audit finding and recommendations. A comprehensive plan will
be developed to reduce or eliminate the backlog of consultant reviews and preparation of
internal inspection reports. In response to the audit, your office also modified the Data and
Management System database to improve monitoring of the report issuance process and will
include the issuance of inspection reports as a part of assessing overall performance.

We consider the proposed corrective actions, if fully implemented, responsive to the audit
recommendations. Appendix 2 of the attached report includes verbatim the Office of Energy
Projects' comments.


Attachment
cc: The Secretary of Energy
    Director, Office of Energy Projects, FERC
Federal Energy Regulatory Commission's Dam Safety Program


TABLE OF
CONTENTS


                  Overview

                  Introduction And Objective ................................................................... 1

                  Conclusions And Observations ............................................................. 2


                  Dam Safety Program

                  Details Of Finding ................................................................................. 3

                  Recommendations And Comments ....................................................... 7


                  Appendices

                  1. Scope And Methodology ................................................................. 9

                  2. Management Comments ................................................................ 10

                  3. Prior Report .................................................................................. 13
Overview

INTRODUCTION AND   Under the Federal Power Act, as amended, the Federal Energy
OBJECTIVE          Regulatory Commission (Commission) is responsible for licensing and
                   regulating over 2,500 non-Federal hydroelectric dams. The
                   Commission's primary responsibility is to ensure that dams under its
                   jurisdiction are properly constructed, operated, and maintained. To
                   determine whether the dams' physical structure is maintained in a safe
                   manner to protect the public, the Commission performs on-site
                   inspections to identify evidence of damage or other conditions that
                   could impair proper project operation or violate license requirements.
                   To maintain organizational and public accountability, the Commission
                   requires that inspection results be documented in a written report.

                   Over 900 of these non-Federal dams are considered high and significant
                   hazard dams because failure of the dam structures could result in danger
                   of human life, economic loss, environmental damage, or disruption of
                   facilities. These dams are scheduled for inspection annually by the
                   Commission and once every 5 years by independent consultants.
                   Commission guidelines require that staff engineers assess the scope and
                   adequacy of independent consultant inspections. The remaining dams,
                   which have a low risk that failure would result in such loss, are
                   inspected every 3 years.

                   Responsibility for the Commission's dam safety program has been
                   assigned to the Division of Dam Safety and Inspections. Primary
                   responsibility for the day-to-day conduct of high and low risk
                   inspections has been delegated to the Commission's five regional
                   offices.

                   The Commission's longstanding dam safety program has been
                   internationally recognized. Other Federal and state agencies
                   responsible for dam safety and compliance view the Commission as a
                   leader in dam safety and believe its procedures meet or exceed currently
                   recognized engineering standards for dam safety. In accordance with
                   the Government Performance and Results Act (GPRA) of 1993, the
                   Commission established measures for the dam safety program that
                   included assuring all high and significant hazard dams were inspected
                   annually and the level of such dams meeting all current structural safety
                   standards was to remain uniformly high.

                   The objective of the audit was to determine if the goals of the dam
                   safety program were being met. More specifically, the audit focused on
                   whether the Division of Dam Safety and Inspections was conducting
                   inspections, including reporting results and tracking follow-up actions.



Page 1                                                        Introduction And Objective
CONCLUSIONS AND   In Fiscal Year (FY) 1999, the Commission conducted operation
OBSERVATIONS      inspections at over 900 high and significant hazard dams and was
                  appropriately tracking needed actions. However, improvements were
                  needed in the review of independent consultant reports and the
                  processing of internal reports.

                  A review of selected activities at three regional offices showed that
                  inspections to ensure structural soundness and public safety at high and
                  significant hazard dam projects were carried out. Furthermore, the
                  Commission used management information systems to track key
                  requirements and actions, and the information contained in these
                  systems was generally found to be accurate and complete.

                  However, as of spring 2000, the Commission had not comprehensively
                  reviewed over 70 independent consultant reports and had not prepared
                  final reports of more than 300 internal inspections, some of which had
                  been performed in FY 1997. The backlogs existed because
                  management had not fully monitored regional office performance
                  related to review and reporting or established report issuance as a
                  priority. As a result, the Commission did not have complete, timely,
                  and important information about the safety condition of some dams
                  under its jurisdiction. Further, inspection results were susceptible to
                  misunderstanding since they had not been finalized and were not
                  available for management review and public accountability.

                  The issues discussed in this audit report should be considered by
                  management when preparing the yearend assurance memorandum on
                  internal controls.



                                                         Signed
                                               Office of Inspector General




Page 2                                                  Conclusions And Observations
Dam Safety Program

Consultant and        The Commission's Division of Dam Safety and Inspections Operating
Operational Reports   Manual provides guidelines for validating independent consultant
Require Processing    reports as well as conducting and reporting the results of internal
                      inspections. The guidelines require that a qualified independent
                      consultant inspect each high and significant hazard dam every 5 years.
                      These inspections provide an independent assessment of whether there
                      are any current or potential deficiencies in the condition of project
                      structures, quality and adequacy of maintenance, or methods of
                      operation that might endanger public safety. Commission guidelines
                      also require that staff engineers perform both preliminary and detailed
                      reviews of data presented in the independent consultant reports. The
                      preliminary (or cursory) review is designed to identify immediate dam
                      safety concerns that need to be addressed. The more detailed review
                      evaluates, among other things, the consultant's assessment of the
                      structural stability and adequacy of the dams and if the inspection was
                      consistent with Commission design criteria. The detailed review is to
                      be performed within 120 days after receiving the consultant report.

                      Commission guidelines also require that onsite operation inspections
                      performed by staff engineers be completed with a written report within
                      60 days. These reports include a discussion of the project's operations
                      and maintenance program, items that need correction, and photographs.
                      These reports also communicate inspection results to licensees and the
                      public and facilitate follow up to determine whether appropriate
                      corrective actions are taken. The reports further provide historical data
                      that should be used to develop trend analyses and aid in the early
                      identification of problems. The need to maintain public accountability
                      and avoid any misunderstanding of inspection results requires that
                      inspection reports be written and completed in a timely manner to be of
                      maximum use to decision makers and stakeholders.


Review and Report     Three regional offices had not performed required detailed reviews of
Processing Was        over 70 independent consultant reports. The purpose of these reviews
Not Timely            was to validate the adequacy of the consultants' work and evaluate the
                      appropriateness of recommended actions. These same regional offices
                      had also not prepared the final reports detailing the results of more than
                      300 internal inspections.




Page 3                                                                      Details Of Finding
                         Review of Independent Consultant Reports

         As of spring 2000, more than 70 independent consultant reports had not
         been comprehensively reviewed. While these reviews were to be
         completed within 120 days after receiving the consultant reports, 34 of
         these reviews had been delayed for more than 2 years. Table 1 shows
         the number of independent safety inspections that the three offices had
         not fully evaluated for adequacy.

                    Table 1 - Backlog of Detailed Reviews of Independent Consultant Reports
                                           (Year Report Received)

         Regional Office          FY97             FY98             FY99             Total

         Atlanta                   1                6                10               17
         Chicago                   8               15                26               49
         San Francisco             0                4                 8               12

         Total                     9                25               44               78

         The regional offices audited had, however, performed preliminary or
         cursory reviews of all independent consultant reports sampled to
         identify and track immediate dam safety concerns. If no concerns were
         apparent, the detailed or more in depth evaluation of the consultants'
         findings was postponed and priority was given to completing
         inspections of high and significant hazard dams. However, the
         Commission and stakeholders did not have information on the safety
         conditions of these dams.

         The Atlanta office was 9 months behind schedule in reviewing
         independent consultant reports. Atlanta officials advised that the delay
         occurred because of staff limitations. Chicago was 1.5 years behind
         schedule. Officials from Chicago, which had more than half the
         backlog, advised that a number of its detailed reviews were awaiting the
         results of a study on maximum flood levels that had not yet been
         completed. Data from this study was needed to fully assess consultants'
         findings.

                                Unwritten Inspections Reports

         A review of selected activities scheduled during FY 1999 for high and
         significant hazard dams showed that inspections were carried out, and




Page 4                                                              Details Of Finding
                     deficiencies were being tracked. However, the results of more than
                     300 internal inspections had not been documented in a final report.
                     The problem existed predominantly in the Atlanta office. Table 2
                     shows the number of unwritten inspection reports that existed at each
                     regional office as of spring 2000.

                                         Table 2 - Unwritten Inspection Reports
                                          (Fiscal Year Inspection Completed)


                     Regional Office        FY97             FY98                 FY99     Total

                     Atlanta                 25                91                 171        287
                     Chicago                  0                 0                  11         11
                     San Francisco            0                 0                  24         24

                     Total                   25                91                 206        322

                     On average, FY 1999 reports for Atlanta were more than 7 months past
                     due. According to officials, a backlog of unwritten reports had existed
                     for many years. The backlog at one time included more than 800
                     unwritten reports, but improvements in management and workload
                     prioritization helped reduce the backlog to 287. The unwritten report
                     backlogs at Chicago and San Francisco were minimal. However,
                     additional staff reductions could result in future backlogs at these sites.

                     Regional officials advised that even though final inspection reports had
                     not been issued, letters identifying issues needing immediate attention
                     had been sent to licensees. Furthermore, the Commission was tracking
                     corrective actions identified in these letters. While these actions were
                     important, such letters were not a substitute for a final report that,
                     among other things, satisfied the Commission's responsibility to have a
                     formal report available for all stakeholders. More importantly, final
                     reports were needed in succeeding inspections to develop trend
                     analyses and aid in the early identification of problems at dams.

                     In discussions about the report backlog, Headquarters officials
                     acknowledged the importance of finalizing inspection results with a
                     written report. Officials further stated that eliminating the final report
                     was not a consideration.


Improved Oversight   Headquarters officials who were responsible for the dam safety
Needed               program were not fully aware of the backlog of reports and did not




Page 5                                                                        Details Of Finding
                         have sufficient information to track and monitor regional workloads
                         and ensure that inspection results were reviewed and finalized as
                         required. Furthermore, eliminating workload backlogs related to
                         inspection review and reporting was not a priority.

                         The Division of Dam Safety and Inspections maintained a database,
                         which contained more than 300 items of information on dams under
                         their cognizance, including the date of each inspection. However, the
                         system did not contain a field that tracked the dates inspection reports
                         were issued or when reviews of independent consultant reports were
                         completed. Consequently, Headquarters officials relied extensively on
                         the regional offices to ensure that workloads, including inspection
                         activities, were completed within required timeframes.

                         Also, eliminating the backlog of independent consultant reviews and
                         unwritten inspection reports was given a lower priority in the regions.
                         Regional officials advised that because of staffing limitations,
                         workloads were prioritized and attention was given to conducting
                         annual inspections of all high and significant hazard dams. Officials
                         further expressed concern that given recent reductions in engineering
                         staffing it will be difficult to reduce current backlogs or meet the
                         required timeframes in the future.

                         Although the Division of Dam Safety and Inspections had established a
                         GPRA performance measure for assuring all high and significant
                         hazard dams were inspected annually, the requirement for an issued
                         report was not included as a goal. Such information is important if the
                         commission is to achieve its intended outcome as envisioned by GPRA.
                         This information is also important in identifying areas needing
                         management attention.


Safety Information Was   Delays in reviewing independent consultant reports could affect the
Not Fully Available      timely identification of dam safety concerns. Furthermore, the
                         Commission and relevant stakeholders did not have timely and
                         complete information on the safety condition at some dams.

                         Regional officials provided several examples where dam safety
                         concerns were identified as a result of the Commission's detailed
                         reviews of consultant safety inspections. In one example, a detailed
                         review conducted by Commission engineers disclosed that the
                         independent consultant had not used the most current seismic data to
                         assess a dam's stability. In this case, the Commission requested that the
                         safety of the dam be reevaluated using current seismic data. As a result


Page 6                                                                        Details Of Finding
                  of the reevaluation, the dam underwent major modification. In another
                  example, a regional office analysis of the independent consultant's
                  inspections disclosed that the study did not adequately assess the
                  stability of the dam's abutment rocks. A detailed evaluation of the dam
                  abutments was subsequently requested. While we were advised that
                  such findings are infrequent, these examples illustrate the importance of
                  conducting timely detailed reviews of independent consultant reports.

                  Delays in documenting the results of internal inspections also increase
                  the chances that some details of the inspection may be lost, and that the
                  report may not accurately reflect the inspectors' findings. Additionally,
                  failure to complete final reports in a timely manner deprives the public
                  of dam safety information. More importantly, historical information
                  needed to develop trend analysis, which can aid in the early
                  identification and correction of dam safety problems, was not available.


RECOMMENDATIONS   We recommend that the Director, Office of Energy Projects increase
                  oversight and give priority attention to reducing the backlog of
                  independent inspection reports and unwritten internal inspection
                  reports. At a minimum, the Director should:

                  1. Develop a management plan to reduce the current backlogs in the
                     detailed review of consultant reports and unwritten internal
                     inspection reports. This plan should include definitive milestones,
                     goals, and strategies for achieving this reduction so that GPRA
                     goals can be attained.

                  2. Modify Headquarters monitoring systems to track regional office
                     milestone dates to include when inspection reports are issued and
                     detailed reviews are completed.

                  3. Ensure that regional offices have resources to achieve
                     organizational goals related to dam safety, and develop a
                     contingency plan that prioritizes regional activities if needed
                     resources are not received.

                  4. Include issuance of inspection reports as a performance measure in
                     evaluating the dam safety program.


MANAGEMENT        In response to our draft report, the Director, Office of Energy Projects,
REACTION          concurred with the finding and recommendations and advised us of



Page 7                                              Recommendations And Comments
           steps initiated to implement the recommendations contained in the
           report. Specifically, each Regional Director will be required to develop
           a comprehensive plan to eliminate the current backlog of consultant
           reviews and the preparation of internal inspection reports. The plans
           will contain definitive milestones and trackable goals to significantly
           reduce or eliminate the current backlog over the next fiscal year. With
           regard to the Data and Management System database, the program has
           been modified to track completion dates of both internal inspection
           reports and consultant report reviews. Finally, officials are taking steps
           to ensure regional offices have resources to achieve organizational
           goals related to dam safety and include issuance of inspection reports as
           a part of assessing overall performance.

           The Office of Energy Projects' verbatim comments on this report have
           been included in Appendix 2.


AUDITOR    Management’s proposed actions are responsive to the
COMMENTS   recommendations.




Page 8                                       Recommendations And Comments
Appendix 1

SCOPE         The audit was performed from November 1999 through September 2000 at
              the Federal Energy Regulatory Commission in Washington, D.C.; and
              Atlanta, Chicago, and San Francisco Regional Offices.


METHODOLOGY   To accomplish the audit objective we:

              •   Reviewed policies and procedures established to accomplish Division
                  of Dam Safety and Inspections goals.

              •   Interviewed Commission officials at Headquarters concerning dam
                  safety responsibilities, operating manual requirements, and
                  management of workload levels.

              •   Interviewed field office officials concerning dam safety issues
                  including workload levels, establishing priorities, extent of backlogs,
                  and actions necessary to manage scheduling and tracking systems.

              •   Accompanied the Commission engineer on two dam safety inspections
                  at the Atlanta Regional Office.

              •   Reviewed workload systems and products including independent
                  consultant reports, inspection reports, and workload tracking systems.

              •   Selected a sample of high and significant hazard dams scheduled for
                  inspection during Fiscal Year 1999 and verified that the inspections
                  had been performed.

              •   Interviewed dam safety officials at the Corps of Engineers, State of
                  Maryland, and the Tennessee Valley Authority.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits, and included tests
              of internal controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. We reviewed and utilized
              computer-processed data from several Commission reporting and tracking
              systems. We performed tests to review the accuracy of this data to the
              extent necessary to meet our audit objective. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit.

              A formal exit conference was waived by the Federal Energy Regulatory
              Commission’s Office of Energy Projects.


Page 9                                                         Scope And Methodology
Appendix 2

RESPONSE TO
AUDIT REPORT




Page 10        Management Comments
Page 11   Management Comments
Page 12   Management Comments
Appendix 3

GENERAL ACCOUNTING   Electricity Regulation: FERC’s Efforts to Monitor and Enforce
OFFICE REPORT        Hydroelectric Requirements, GAO/RCED-94-162, May 1994. FERC’s
                     monitoring procedures and practices were adequate to ensure that
                     nonfederal hydroelectric projects were operating in compliance with its
                     requirements. In addition, FERC's procedures for investigating
                     allegations of noncompliance with license requirements were adequate
                     and generally followed.




Page 13                                                                   Prior Report
                                                                           IG Report No. DOE/IG-0486

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
       electronically through the Internet at the following alternative addresses:


             Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
